APPENDIX A

United States v. Fannin
United States Court of Appeals for the Fifth Circuit
August 27, 2020, Filed
No. 20-10131 Summary Calendar
Reporter
821 Fed. Appx. 358 *; 2020 U.S. App. LEXIS 27346 **; 2020 WL 5079326

UNITED STATES OF AMERICA, Plaintiff-Appellee, versus
TOMMY DEMOND FANNIN, Defendant-Appellant.

Opinion
[*359] PER CURIAM:*

Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 4:19-CR242-1.

Disposition: AFFIRMED.

Counsel: For United States of America, Plaintiff - Appellee:
Brian W. McKay, Esq., Assistant U.S. Attorney, Leigha Amy
Simonton, Assistant U.S. Attorney, U.S. Attorney's Office,
Northern District of Texas, Dallas, TX.
For Tommy Demond Fannin, Defendant - Appellant: Brandon
Elliott Beck, Federal Public Defender's Office, Northern
District of Texas, Lubbock, TX; George Howard Lancaster
Jr., Federal Public Defender's Office, Northern District of
Texas, Fort Worth, TX.

Judges: Before SOUTHWICK, DUNCAN, and OLDHAM,
Circuit Judges.

Tommy Demond Fannin pleaded guilty to illegal possession
of a firearm by a convicted felon. He was sentenced to a 78month term of imprisonment. Fannin now appeals,
challenging his sentence.
The facts recounted in Fannin's Presentence Report (PSR)
show that Tianay Grey allowed Fannin to borrow her car.
Upon Fannin's return, he became upset with Grey and
demanded that she give back some money. Grey exited her
apartment to retrieve the money, which was in her car. Fannin
followed her outside, and he discharged his illegally
possessed firearm straight up in the air. [**2] Grey became
fearful. After she gave the money to Fannin, he took Grey
inside, strangled her, and punched her in the eye.
In determining Fannin's guidelines range, the probation
officer applied the cross-reference under U.S.S.G. §
2K2.1(c)(1)(A) to U.S.S.G. § 2X1.1(a), which in turn led to
the application of U.S.S.G. § 2A2.2, the Guideline addressing
aggravated assault. Fannin's objection to the application of §
2K2.1(c)(1) was overruled.
In his sole issue on appeal, Fannin contends that the district
court erred in imposing the cross-reference under §
2K2.1(c)(1) because there was no connection between his
possession of the firearm and the aggravated assault on Grey.
Relying on transcripts of Grey's discussions with police
officers, and on police reports, Fannin asserts that he
discharged his firearm to keep Grey away from him, left the
scene, and then came back, at Grey's request, to return her
key. It was only then, he contends, that the aggravated assault
occurred, and he argues that the firearm did nothing to

* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

Brandon Beck

Page 2 of 2
821 Fed. Appx. 358, *359; 2020 U.S. App. LEXIS 27346, **2
facilitate the commission of the aggravated assault.
Pursuant to the commentary to § 2K2.1, subsection (c)(1)
applies "if the firearm or ammunition facilitated, or had the
potential of facilitating," another offense. § 2K2.1, comment.
(n.14(A)). We have stated that the "in connection with"
language [**3] of § 2K2.1(c) requires a "functional nexus."
United States v. Mitchell, 166 F.3d 748, 756 (5th Cir. 1999).
Our review of the district court's application of § 2K2.1(c)(1)
is de novo, whereas the factual finding of a connection
between the firearm and another offense is reviewed for clear
error. See id. at 754 n.24.
Although there are references in the transcripts to Fannin
leaving and coming back, the record does not clearly show
that, after discharging the firearm, Fannin departed the scene
before he strangled Grey. Because the factfinder's choice
between two permissible views of the evidence is not clearly
erroneous, see United States v. Harris, 740 F.3d 956, 967 (5th
Cir. 2014), the district court did not clearly err to the extent it
implicitly rejected Fannin's contention that there were two
separate encounters.
The PSR establishes that the entire incident occurred at Grey's
residence, and police reports show that all of the relevant
events, starting with the discharge of the firearm, and
culminating in the aggravated assault on Grey, occurred
within a few [*360] minutes. The record does not indicate
that Fannin's possession of the firearm and his commission of
the aggravated assault were "geographically, spatially,
functionally, [or] logically remote." Mitchell, 166 F.3d at 756.
In view of the foregoing, the district court's determination that
there was a connection [**4] between Fannin's possession of
the firearm and the aggravated assault on Grey "is plausible in
light of the record read as a whole," and is therefore not
clearly erroneous. United States v. Villanueva, 408 F.3d 193,
203 (5th Cir. 2005).
AFFIRMED.

End of Document

Brandon Beck

APPENDIX B

Case 4:19-cr-00242-A Document 39 Filed 01/31/20

Page 1 of 5 PageID 161

20-10131.49

Case 4:19-cr-00242-A Document 39 Filed 01/31/20

Page 2 of 5 PageID 162

20-10131.50

Case 4:19-cr-00242-A Document 39 Filed 01/31/20

Page 3 of 5 PageID 163

20-10131.51

Case 4:19-cr-00242-A Document 39 Filed 01/31/20

Page 4 of 5 PageID 164

20-10131.52

Case 4:19-cr-00242-A Document 39 Filed 01/31/20

Page 5 of 5 PageID 165

20-10131.53

